<html>
<title> - NOMINATIONS OF THOMAS E. HARVEY TO BE ASSISTANT SECRETARY FOR CONGRESSIONAL AND LEGISLATIVE AFFAIRS, DEPARTMENT OF VETERANS AFFAIRS; AND PATRICK W. DUNNE TO BE ASSISTANT SECRETARY FOR POLICY AND PLANNING, DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[Senate Hearing 109-637]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-637
 
     NOMINATIONS OF THOMAS E. HARVEY TO BE ASSISTANT SECRETARY FOR 
CONGRESSIONAL AND LEGISLATIVE AFFAIRS, DEPARTMENT OF VETERANS AFFAIRS; 
AND PATRICK W. DUNNE TO BE ASSISTANT SECRETARY FOR POLICY AND PLANNING, 
                     DEPARTMENT OF VETERANS AFFAIRS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 2006

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-718                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    Larry E. Craig, Idaho, Chairman
Arlen Specter, Pennsylvania          Daniel K. Akaka, Hawaii, Ranking 
Kay Bailey Hutchison, Texas              Member
Lindsey O. Graham, South Carolina    John D. Rockefeller IV, West 
Richard Burr, North Carolina             Virginia
John Ensign, Nevada                  James M. Jeffords, (I) Vermont
John Thune, South Dakota             Patty Murray, Washington
Johnny Isakson, Georgia              Barack Obama, Illinois
                                     Ken Salazar, Colorado
                  Lupe Wissel, Majority Staff Director
                   Bill Brew, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                             JULY 27, 2006
                                SENATORS

                                                                   Page
Craig, Hon. Larry E., Chairman, U.S. Senator from Idaho..........     1
Akaka, Hon. Daniel K., Ranking Member, U.S. Senator from Hawaii..     3
Murray, Hon. Patty, U.S. Senator from Washington.................     3
Hutchison, Hon. Kay Bailey, U.S. Senator from Texas..............     4

                               WITNESSES

Harvey, Thomas E., nominee to be Assistant Secretary for 
  Congressional and Legislative Affairs, Department of Veterans 
  Affairs........................................................     5
    Prepared statement...........................................     7
    Questionnaire................................................     8
Dunne, Rear Admiral Patrick W., (Ret.), U.S. Navy, nominee to be 
  Assistant Secretary for Policy and Planning, Department of 
  Veterans Affairs...............................................    14
    Prepared Statement...........................................    14
    Questionnaire................................................    16

                                APPENDIX

Goodman, Allan E., President and CEO, Institute of International 
  Education, prepared statement..................................    29
Gorman, David W., Executive Director, Disabled American Veterans, 
  prepared statement.............................................    29


     NOMINATIONS OF THOMAS E. HARVEY TO BE ASSISTANT SECRETARY FOR 
CONGRESSIONAL AND LEGISLATIVE AFFAIRS, DEPARTMENT OF VETERANS AFFAIRS; 
AND PATRICK W. DUNNE TO BE ASSISTANT SECRETARY FOR POLICY AND PLANNING, 
                     DEPARTMENT OF VETERANS AFFAIRS

                              ----------                              


                        THURSDAY, JULY 27, 2006

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SR-418, Russell Senate Office Building, Hon. Larry E. Craig, 
Chairman of the Committee, presiding.
    Present: Senators Craig, Hutchison, Akaka and Murray.

   OPENING STATEMENT OF HON. LARRY E. CRAIG, CHAIRMAN, U.S. 
                       SENATOR FROM IDAHO

    Chairman Craig. Good morning, ladies and gentlemen. The 
Committee on Veterans' Affairs is convening this morning to 
consider two nominations for important positions at the 
Department of Veterans Affairs. Thomas Harvey has been 
nominated by President Bush to serve as Assistant Secretary for 
Congressional and Legislative Affairs. Retired Admiral Patrick 
Dunne has been nominated by the President to serve as Assistant 
Secretary for Policy and Planning. Both of these gentlemen come 
before the Committee with vast experience in Government and 
strong leadership credentials.
    Mr. Harvey has spent nearly four decades serving his 
country in various areas of Government, as well as performing 
equally valuable work in the private sector. He served his 
Nation honorably in the U.S. Army, spending almost 3 years in 
Vietnam with the 173rd Airborne Brigade. He earned a Silver 
Star, a Bronze Star, and was awarded the Purple Heart for 
injuries sustained during enemy battle. Mr. Harvey may look 
very familiar to a few of you on the Committee, that is because 
some of his leadership skills were acquired right here in this 
room where he served two separate stints as the Committee's 
Staff Director and Chief Counsel under Chairman Alan Simpson. 
That must have been a very interesting duty.
    Mr. Harvey. Very.
    Senator Craig. We know Alan Simpson, the former Senator 
from Wyoming. One of our colleagues, Senator Kay Bailey 
Hutchison of Texas, will be here to recognize Tom, so I will 
leave any additional comments on the rest of his impressive bio 
to Senator Hutchison when she arrives.
    Tom is also joined today by some of his family members. 
However, I won't steal his thunder and I say to both of you 
that when it is your time for testimony, I encourage you to 
recognize your families and introduce them to the Committee.
    Also before us today is Retired Rear Admiral Patrick Dunne, 
who comes to the Committee nominated to serve as Assistant 
Secretary for Policy and Planning. As many of you know, that 
office has been the focal point of much of the discussion 
surrounding the theft of the laptop computer and hard drive 
from a VA employee's home. The office Admiral Dunne has been 
chosen to lead has been vacant for nearly 3 years. I think this 
man is the right person to put back together and lead this area 
at the current time.
    Admiral Dunne, up to this point, has spent most of his 
adult life serving to advance the cause of freedom to the U.S. 
Navy. He is a 1972 graduate of the Naval Academy of Annapolis 
and he received his Master's Degree in Mathematics from Navy's 
Postgraduate School in Monterey, California. I think it goes 
without saying that a man that rises to the rank of Rear 
Admiral in the U.S. Navy has already demonstrated his 
leadership skills time and again.
    The Admiral's list of assignments and duties for over a 30-
year career in the Navy is long and distinguished, but I want 
to point out just one. I was so pleased that the Admiral was 
able to spend about 6 months of quality time during the winter 
of 1973 and 1974 in Idaho Falls, Idaho. For those of you who 
have not had that opportunity, Idaho Falls, while in a high 
desert environment and a flat landscape, is a mile high and the 
sweep of Canadian-type weather flows down across Montana and on 
to the high desert plains of Idaho and takes the temperatures 
well below zero in Idaho Falls.
    So many of you who have not had that experience must 
recognize though that Idaho Falls is the home of the Nation's 
preeminent nuclear facility, the Idaho National Laboratory, and 
the Admiral spent time at the nuclear training unit. If I had 
to guess, I would say that memories of his winter in Idaho 
Falls served as an impetus to assure his last assignment in 
Monterey, California. I will put the beauty of Idaho up against 
any place on the planet, including Monterey, but I concede that 
the weather in Monterey is probably a good deal more pleasant.
    Admiral Dunne is also joined by some of his family and 
again Admiral, I encourage you to introduce them to the 
Committee during your time of testimony.
    Before I turn to Senator Kay Bailey Hutchison of Texas, who 
has additional comments and the introduction of Tom Harvey, let 
me turn to our Ranking Member, Danny Akaka, for any additional 
comments he would like to make.
    Senator Akaka.

STATEMENT OF HON. DANIEL K. AKAKA, RANKING MEMBER, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Mr. Chairman, it is always a pleasure to 
work with you. Today, the Committee meets to tender the 
nominations for two important positions. I am pleased to 
welcome the two nominees and pleased to see their families here 
as well as their friends. These two positions are integral to 
the VA's mission and must be filled with qualified, competent 
and motivated individuals. I am confident the Committee will 
give thoughtful consideration to these nominations.
    Retired Navy Admiral Patrick Dunne has been nominated to be 
the Assistant Secretary for Policy and Planning. Admiral Dunne, 
I look forward to seeing how you plan to rectify the 
dysfunction affecting the Office of Policy and Planning as 
highlighted by the recent IG report on the data loss issue. 
Firm leadership is critical to restoring the integrity and 
intended function of this office.
    Mr. Thomas Harvey has been nominated to be the Assistant 
Secretary for Congressional Legislative Affairs. Tom has a long 
and successful career in the veterans' arena both here and with 
the Committee and at the VA. Most recently, he has been serving 
as acting Assistant Secretary. For those on the Committee who 
have not worked with Tom in the past, his most recent tenure in 
the VA has given insights into how he works with Congress. I am 
confident that Tom's expertise and experience will prove 
invaluable to his success. Tom, as the conveyor of information 
to Congress, the Committee, along with our colleagues in 
Congress, must be able to depend on you and your staff to work 
with us to address questions and concerns.
    Assuming your confirmations, which I do, I urge you both to 
work to build and maintain relationships with Committee Members 
and staff so that both the VA and the Committee can better 
serve the veterans of this great Nation. Thank you, Mr. 
Chairman.
    Senator Craig. Thank you, Senator Akaka.
    Senator Murray of Washington has joined us. Senator Murray, 
do you have any opening comments?

         STATEMENT OF HON. PATTY MURRAY, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman and 
Senator Akaka, for holding this hearing and I want to join you 
in welcoming Admiral Dunne and Mr. Harvey to the Committee.
    Admiral Dunne, I hope that we hear from you today about 
what steps you are going to take to reinvigorate the VA with 
the leadership that I think it needs to properly budget for the 
care and services that our veterans need and deserve and really 
have earned. The position that you are seeking has a great 
responsibility to our veterans and we need leadership that is 
going to take initiative to improve access to health care and 
benefits to ensure that our servicemembers from Iraq and 
Afghanistan who are returning home get the services that they 
need.
    I appreciate the time we had to meet, and I have some 
concerns, and I do want to hear from you today about your basic 
knowledge and understanding of this agency and the real inner 
workings of the VA. I hope that I hear from you, that you will 
get up to speed quickly, and that you will not be just a rubber 
stamp for the Administration policies, but will be a real 
advocate for the veterans and make sure that they are the ones 
that are at the top of the agenda on the decisions that are 
being made. I look forward to your testimony and the questions 
today.
    Mr. Harvey, thank you, too for taking the time to meet with 
me. Clearly, having good relationships with the Members of 
Congress to work on critical challenges is really important and 
I look forward to hearing from you on how we can build those 
relationships and better serve all of our veterans. 
Republicans, Democrats, Independents and Americans look forward 
to working with you.
    Thank you.
    Senator Craig. Thank you very much. Before I swear in both 
of our nominees, let me turn to the Honorable Kay Bailey 
Hutchison of Texas, for additional introductory comments in 
relation to Tom Harvey. Kay, welcome to the Committee. Tom 
knows this, but Admiral, Kay is also a Member of this Committee 
so she is serving a dual purpose.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you very much, Mr. Chairman, and I 
thank you for having this hearing for both of our nominees. It 
is very important that we have both of them official, hopefully 
before we recess. I do believe we are planning an expedited 
vote on them because they both hold such important positions to 
improve the VA as they meet transition operations.
    I am very pleased to be able to introduce my friend, Tom 
Harvey, for the position that has been mentioned. This is for 
Assistant Secretary for Congressional and Legislative Affairs. 
I cannot think of anyone more qualified for this position than 
Tom Harvey, not only because of his experience previous to his 
appointment, but because of the way he has handled many very 
tough issues during his interim time in the position. As was 
probably mentioned before I came, he is accompanied by his 
wife, Cathie Black, who is also a friend of mine and one of the 
most accomplished women in America, and his son, Duffy Harvey. 
They also have a daughter, Allison, who chose camp instead of 
listening to her father speak again. I cannot imagine why she 
would do that. But they are a wonderful family and I have known 
them for a long time.
    I think it is so much fun when a person who served as Chief 
Counsel of this Committee comes back as a nominee to be 
Assistant Secretary. That gives everyone there on the back row 
the clue that there is something wonderful in your future. He 
was the Chief Counsel and Staff Director from 1981 to 1983, and 
then again, from 1995 to 1996. He has an in-depth knowledge of 
the Congressional process as it relates to veterans. He has 
committed his life's work to serving veterans and his 
reputation and credentials are impeccable.
    After leaving the Committee staff, he was appointed to 
serve on the Commission for Servicemembers and Veterans 
Transition Assistance that was established by Congress, and 
that is where he came to know and work with the former 
Secretary of Veterans Affairs, Anthony Principi. The 
Commission's work was thorough and comprehensive and, in large 
part, I think that was because the Committee Members were 
people, like Tom, who really understood veteran issues. Over 
the last several years, he has been acting Assistant Secretary 
and was before that the senior advisor to the Secretary of 
Veterans Affairs.
    He is also well known and respected for his expertise with 
other Federal agencies. He has been Deputy Administrator of the 
Veterans' Administration, and General Counsel and Congressional 
liaison at the U.S. Information Agency. He was Deputy Assistant 
Secretary of the Army for Acquisitions and Principal Deputy 
Assistant Secretary of the Navy for Logistics.
    He is also a combat decorated Vietnam veteran. He served 
two-and-a-half years in Vietnam as an infantry company 
commander and as an advisor with the Vietnamese Airborne 
Division. During his tenure of service, Tom earned a Silver 
Star and a Purple Heart. He is also a senior parachutist, a 
ranger, and a recipient of the combat infantry badge.
    Mr. Chairman, I cannot think of anyone more qualified for 
this position and I highly recommend him to you. I do also want 
to mention that I am not here to introduce Admiral Dunne, but I 
certainly am very pleased about his nomination. He is, as 
Senator Murray said, a key lynchpin of the Veterans' 
Administration to give service to our veterans, and I know that 
he will do a fine job as well.
    Thank you, Mr. Chairman.
    Senator Craig. Kay, thank you very much. I appreciate that. 
Now, I will ask both of you to rise with me and to raise your 
right hand to be sworn in the customary fashion we do to all 
the nominees coming before the Committee.
    [Witnesses sworn.]
    Senator Craig. Danny has to do dual purpose today so he 
will be leaving us. Tom, we will start with you. Please proceed 
with your testimony and, as I mentioned earlier, please 
introduce any members of your family who is with you for the 
Committee and for the record.

    STATEMENT OF THOMAS E. HARVEY, NOMINEE TO BE ASSISTANT 
SECRETARY FOR CONGRESSIONAL AND LEGISLATIVE AFFAIRS, DEPARTMENT 
                      OF VETERANS AFFAIRS

    Mr. Harvey. Thank you very much, Mr. Chairman and Members 
of the Committee. Thank you for the opportunity to appear 
before you this morning as the President's nominee for the 
position of Assistant Secretary for Congressional Affairs, 
Department of Veterans Affairs. I am honored to have been 
nominated to that position by the President, and I appreciate 
the confidence shown in me by Secretary Jim Nicholson as he 
supported that nomination. I know that Senator Hutchison has 
other commitments, but what I wanted to mention prior to her 
departure was that my daughter Allison, who could not be with 
us this morning, is actually a Texan and takes great pride in 
that and, if you were to ask her where she is from she would 
say Texas.
    I was pleased when Secretary Nicholson asked me to return 
to the Department to help him out with this transition. Earlier 
in my career I had served for 5 years as Chief Counsel and 
Staff Director of this Committee under the Chairmanship of 
Senator Al Simpson. I believe that I was aware of many of the 
valid concerns of Members of Congress with regard to the VA. I 
felt that with my background, I could help Secretary Nicholson 
and the VA to better respond to those concerns.
    During the Reagan Administration, I served as Deputy 
Administrator of the Veterans' Administration. I felt that I 
knew how those issues and concerns affected the VA and hoped 
that I would be able to help the VA to better understand and 
respond to Congressional needs.
    As a Vietnam combat veteran, serving two-and-a-half years 
there as an Army infantry officer, I also felt that I 
understood on a deeply personal level, something about this 
country's veterans. I volunteered for duty in Vietnam. Many of 
my fellow veterans did not have that choice. They were young 
and out of school. They were drafted and they served selflessly 
and courageously in that conflict because that is what their 
country asked of them.
    Tom Brokaw spoke of those that served in World War II as 
the ``Greatest Generation'' in his book of that name, written 
some 50 years after the end of that conflict. I have every 
expectation that the Vietnam War will provide just the same 
gripping stories so that our own children will better 
understand what we experienced, and the same will happen to 
those now returning from defending this Nation in the Middle 
East today.
    Mr. Chairman, should I have the honor of being confirmed 
for this position, I hope that I can effectively serve this 
Administration, the dedicated professionals I have been blessed 
to work with at the VA over the years, and most significantly, 
this country's veterans.
    I would like, if I may, to introduce a few of the people 
who are with me here today, most notably my wife, Cathie Black. 
When I told her that Secretary Nicholson had asked me to help 
him, she said, ``That's great, dear, but what does this mean?''
    It was then that I lied for the first time in our 25 years 
of marriage and said, ``Oh, I don't know. Probably 2 or 3 days 
a week.'' It has not worked out that way, and I think by now 
Cathie has figured out that I was not exactly candid in that.
    My son Duffy is also here. Duffy is working as an intern in 
the Office of the Senate Majority Leader this summer before 
heading off to be a freshman at the University of Notre Dame. 
His sister, our daughter Alison, is off at camp. I believe my 
sister Marian Harvey is here today, as well.
    Also joining me today are several friends, and several are 
from the veteran service community who remember we had a 
scrapping good time when Senator Simpson was Chairman. And 
there are others who are here, or who are, no doubt, listening 
to this hearing streaming over their computers, who are my very 
fine colleagues at the Department of Veterans Affairs.
    There is no finer group of civil servants than those at the 
VA. In a way, they are fortunate. They have a readily 
comprehensible mission, to administer a defined group of 
benefits, health care, various monetary benefits, and a 
dignified burial, to a certain group of people who did 
something special for this country. They donned the uniform and 
risked their lives to protect the freedoms we, as a Nation, 
enjoy. I have never worked with a group that so clearly 
understands their mission and so fully embraces it.
    I recently heard Warren Buffett say that at the age of 75, 
he still ``tap dances to work every day.'' Working with you, 
Mr. Chairman, and Members of your Committee, supporting a 
mission that is so noble, joined by professionals like that, I 
can tell you that, should I be confirmed for this position, I 
will be tap dancing to work every day.
    [The prepared statement of Mr. Harvey follows:]

    Prepared Statement of Thomas E. Harvey, Nominee to be Assistant 
  Secretary for Congressional Affairs, Department of Veterans Affairs

    Mr. Chairman and Members of the Committee.
    Thank you for the opportunity to appear before you this morning as 
the President's nominee for the position of Assistant Secretary for 
Congressional and Legislative Affairs at the Department of Veterans 
Affairs. I am honored to be nominated to that position by the 
President, and I appreciate the confidence shown in me by Secretary Jim 
Nicholson as he has supported that nomination.
    I was pleased when Secretary Nicholson asked me to return to the 
Department of Veterans Affairs to ``help him out'' when he was newly 
appointed Secretary. Having served for 5 years as Chief Counsel and 
Staff Director of this Committee under the Chairmanship of Senator Al 
Simpson, I felt that I was aware of many of the valid concerns Members 
of Congress had with regard to the VA. I felt that with that 
background, I could help VA better respond to those concerns.
    Having served for 3 years as the Deputy Administrator of the 
Veterans' Administration, I felt that I knew how those issues and 
concerns affected that agency and hoped that I would be able to help 
the VA understand and respond to Congressional needs.
    As a Vietnam combat veteran, serving two-and-a-half years there as 
an Army infantry officer, I also felt that I understood something about 
this country's veterans. I volunteered for duty in Vietnam. Many of my 
fellow Vietnam veterans did not have that choice. They were young and 
out of school. They were drafted, and they served selflessly and 
courageously in that conflict--because that is what their country asked 
of them. Tom Brokaw spoke of those who served in World War II as the 
``Greatest Generation'' in his book of that name written some 50 years 
after the end of that conflict. I have every expectation that the 
Vietnam War will provide just such fodder to our own children when they 
write about us some years hence.
    Mr. Chairman, should I have the honor of being confirmed for this 
position, I hope that I can effectively serve this Administration, the 
dedicated professionals I have been blessed to work with at the VA over 
the years, and, most significantly, this country's veterans.
    I am accompanied by my wife, Cathie Black, and by my son Duffy 
Harvey today. Our daughter, Alison, is away at camp. I am also joined 
by a number of friends. And there are others who are here, or no doubt 
listening to this hearing streaming over their computers, who are my 
very fine colleagues at the Department of Veterans Affairs. There is no 
finer group of civil servants than those at the VA. In a way, they are 
fortunate. They have a readily comprehensible mission--to administer a 
defined group of benefits--health care, various monetary benefits, and 
a dignified burial--to a certain group of people who did something 
special for this country. They donned the uniform and risked their 
lives to protect the freedoms we, as a Nation, enjoy. I have never 
worked with a group that so clearly understands their mission and so 
fully embraces it.
    I recently heard Warren Buffett say that, at the age of 75, he 
still ``tap dances to work every day.'' Working with you, Mr. Chairman, 
and Members of your Committee--supporting a mission that is so noble--
joined by professionals like that--I can tell you that, should I be 
confirmed for this position, I will be tap dancing to work every day.

[GRAPHIC] [TIFF OMITTED] T9718.001

[GRAPHIC] [TIFF OMITTED] T9718.002

[GRAPHIC] [TIFF OMITTED] T9718.003

[GRAPHIC] [TIFF OMITTED] T9718.004

[GRAPHIC] [TIFF OMITTED] T9718.005

[GRAPHIC] [TIFF OMITTED] T9718.006

    Senator Craig. Alright, Tom, we will hold you to that. I am 
quite sure if the Secretary does not cause you to tap dance, we 
will. With that, let me turn to Rear Admiral Patrick Dunne, 
nominated as Assistant Secretary for Policy and Planning, 
please proceed.

 STATEMENT OF REAR ADMIRAL PATRICK W. DUNNE (RET.), U.S. NAVY, 
  NOMINEE TO BE ASSISTANT SECRETARY FOR POLICY AND PLANNING, 
                    DEPARTMENT OF VETERANS 
                            AFFAIRS

    Admiral Dunne. Mr. Chairman, Senator Murray, good morning. 
Thank you for the opportunity to testify today. I am honored 
and humbled to have been nominated by President Bush to serve 
as Assistant Secretary for Policy and Planning at the 
Department of Veterans Affairs. I am also most grateful to 
Secretary Jim Nicholson for his confidence in me.
    For the past 33 years, it was my privilege to serve in the 
U.S. Navy. During my many tours at sea on submarines and ashore 
in many different homeports, I developed a deep respect and 
appreciation for the personnel who serve in our Armed Forces 
and their families. Time and again, they displayed the Honor, 
Courage and Commitment that makes our Armed Forces the greatest 
in the world. As time marches on, they too will become 
veterans.
    So I am inspired by them to tackle the challenges of the 
mission of the Department of Veterans Affairs, ``To care for 
him who shall have borne the battle and for his widow and his 
orphan.'' If confirmed, I look forward to joining the team of 
professionals at the Department of Veterans Affairs to 
accomplish this mission. I am confident my experience in the 
Navy has given me the skills to lead and contribute 
effectively.
    I realize I will have much to learn about the Department of 
Veterans Affairs and all the issues that are of concern to our 
veterans. The Assistant Secretary for Policy and Planning is 
responsible to provide advice and counsel to the Secretary and 
other senior leaders on corporate policy and strategic 
planning. If confirmed, I will become thoroughly familiar with 
the issues facing the Department and give my very best effort 
to work diligently and faithfully advise the Secretary and 
Deputy Secretary.
    Mr. Chairman, I would like to formally introduce my wife 
Diane; daughter Erin and son Patrick; my mother Catherine; my 
wife's parents Donald and Eileen Ramroth; and three cousins, 
Kevin, John and Tom Dunne. I would like to note that John just 
returned from working with the State Department for a year in 
Iraq. We are very proud of him. I am very grateful for my 
family's constant love and support.
    Thank you again, Mr. Chairman, for your consideration of my 
nomination and I would be happy to answer any questions you may 
have.
    [The prepared statement of Admiral Dunne follows:]

Prepared Statement of Rear Admiral Patrick W. Dunne (Ret.), U.S. Navy, 
 Nominee to be Assistant Secretary for Policy and Planning, Department 
                          of Veterans Affairs

    Mr. Chairman, Senator Akaka, and Members of the Committee, good 
morning. Thank you for the opportunity to testify today. I am honored 
and humbled to be nominated by President Bush to serve as Assistant 
Secretary for Policy and Planning at the Department of Veterans 
Affairs. I am also most grateful to Secretary Jim Nicholson for his 
confidence in me.
    For the past 33 years, it was my privilege to serve in the United 
States Navy. During my many tours at sea on submarines and ashore in 
many different homeports, I developed a deep respect and appreciation 
for the personnel who serve in our Armed Forces--and their families. 
Time and again they displayed the Honor, Courage and Commitment that 
makes our Armed Forces the greatest in the world. As time marches on, 
they too will become Veterans.
    So I am inspired by them to tackle the challenges of the mission of 
the Department of Veterans Affairs--``To care for him who shall have 
borne the battle and for his widow and his orphan.'' If confirmed, I 
look forward to joining the team of professionals at the Department of 
Veterans Affairs to accomplish that mission. I am confident my 
experience in the Navy has given me the skills to lead and contribute 
effectively.
    I realize I will have much to learn about the Department of 
Veterans Affairs and all the issues that are of concern to our 
Veterans. The Assistant Secretary for Policy and Planning is 
responsible to provide advice and counsel to the Secretary and other 
senior leaders on corporate policy and strategic planning. If 
confirmed, I will become thoroughly familiar with the issues facing the 
Department and give my very best effort to work diligently, and 
faithfully advise the Secretary and Deputy Secretary.
    With me today are my wife, Diane, my daughter, Erin and son, 
Patrick and his wife, Amy; my mother, Catherine, and my wife's parents, 
Donald and Eileen Ramroth. I am very grateful for their constant love 
and support.
    Thank you again, Mr. Chairman and Members of the Committee, for 
your consideration of my nomination. I would be happy to answer any 
questions you may have.

[GRAPHIC] [TIFF OMITTED] T9718.007

[GRAPHIC] [TIFF OMITTED] T9718.008

[GRAPHIC] [TIFF OMITTED] T9718.009

[GRAPHIC] [TIFF OMITTED] T9718.010

[GRAPHIC] [TIFF OMITTED] T9718.011

[GRAPHIC] [TIFF OMITTED] T9718.012

    Senator Craig. Well, thank you both very much. Let us turn 
to questions. Senator Murray, in her opening comments really 
appropriately staged some of the questions and some of the 
concerns that we have.
    Admiral Dunne, let me start with you. As you are well 
aware, the Office of Policy and Planning was the focal point of 
much of the investigation into the theft of data from the home 
of one of the office's employees. Congress and the American 
public have one eye on VA's data system and the people who have 
access to that data.
    If you are confirmed to the position, do you have any 
immediate plans to make changes in the office's functions, 
security procedures, or policies to ensure that such a data 
breach never happens again? Also, what do you intend to do to 
make sure the appropriate communication system is in place 
should a situation like this ever arise again?
    Admiral Dunne. Mr. Chairman, thank you for that question. I 
am aware of the problem and I have read the Inspector General's 
report and I plan to work hard at the communications aspect of 
it. I believe the team needs to be reinvigorated and provided 
with leadership. I have met many of the people and I am 
convinced that they are very dedicated and they are anxious to 
do the right thing. I am convinced that it is important to step 
in and begin executing the Secretary's plan, which he briefed 
the Committee on last week, and make that effective as soon as 
possible.
    I believe there are three areas we need to look at: One, is 
technology and taking a look at those parts of technology that 
will allow us to safeguard the data. We need to put into place 
those policies and procedures which will allow the people to 
work effectively with the data that they must work with. And 
finally, to have effective training which will allow those 
dedicated people to understand the significance of the data 
that they are working with.
    I liken it to my experience in the Navy working with top 
secret material, and the culture needs to be changed so that 
everyone that handles the veterans' data, understands that in 
my mind, it has the same significance as the top secret 
material that I handled in the Department of Defense. It is 
essential that the data be available to be used in order to 
forecast and be able to enhance the impact of our veterans' 
benefits. In order to do that, we have to treat that data 
properly and with the right amount of security.
    Senator Craig. I appreciate those comments and thoughts and 
it appears that you have given this considerable thought. There 
has been a lot of criticism of VA in general, and the Office of 
Policy and Planning specifically. What has come out of the data 
theft is that there is not a culture that used the information 
that is constantly passing though its hands as sensitive. VA 
employees, especially those in Policy and Planning, are if you 
will, desensitized as to the privacy of the information and how 
it might be used if it got out in the public domain.
    So I ask the question, you have partly answered it, but how 
can you create a culture in the Office of Policy and Planning 
that is more sensitive to the importance of the information 
that passes through on a daily basis? I heard you suggest that 
you liken it to the kind of secure information that high-level 
government officials operate under. Are there rules and 
punishments that would accompany those rules and understandings 
of what would result from breaches of that information?
    Admiral Dunne. Yes, sir. I believe that there are and will 
be effective rules in place for which people will be trained. 
They will be held accountable for them, and if necessary, 
disciplinary action taken. I believe that the Secretary has 
taken effective action initially, by giving the authority to 
the Chief Information Officer to act on security incidents and 
make the leaders at the VA aware of any breaches of those rules 
which occur so that the leaders can take appropriate and timely 
actions when these occur.
    Senator Craig. Thank you.
    Senator Murray.
    Senator Murray. Thank you, Mr. Chairman. Let me follow up 
on what the Chairman just talked about. I think what we have 
heard on this Committee over and over again is the culture 
change that is needed, the tremendous need for leadership, and 
a new management style. Can you describe for us what your 
management style is--what kind of leadership style you have?
    Admiral Dunne. Yes, Senator, I can attempt to do that. I 
would say it is one that is based on involvement, based on 
setting high standards, verifying that those standards are 
being executed and holding people accountable for it basically.
    Senator Murray. Is it your intent to go in very first day 
and establish that leadership?
    Admiral Dunne. Absolutely. They will know that I am there 
on day one.
    Senator Murray. As a result of a lot of things that have 
happened from budget issues to loss of that sensitive data, 
veterans across the country are questioning, for the first time 
ever, the leadership at the VA. How do you reestablish that 
trust with them? How do they know that you are going to be in 
that office making sure that decisions are made every single 
day that say that veterans are first? How will they see that?
    Admiral Dunne. Senator, that will be a day by day 
improvement. We will get better one day at a time. As we work 
with that very important data to develop the analysis which VA 
needs, it will become evident as we are able to process that 
data and get the right information forecasting and the right 
evaluation of our programs so that the veterans will see it in 
improved services, improved understanding of their benefits, 
improved outreach, and figure out why people are leaving the 
vocational rehab program. We will solve those problems when we 
are able to effectively use the data by putting the proper 
security in place.
    So therefore, we focus on serving our veterans because the 
culture has been changed, and it is instinctive that we protect 
that data. We are not spending time trying to figure out how to 
protect the data, we are spending time on figuring out how to 
serve our veterans.
    Senator Murray. What will the signal be that veterans can 
see across the country that assures them from day one that you 
are their advocate?
    Admiral Dunne. The signal from day one--I am not sure that 
they can all fit in the room with me day one to see from the 
start how I am going to take charge and make sure that we put 
the plan into effect. But I will definitely make the effort to 
talk to the VSOs, et cetera, and explain to them what I plan to 
do. I will be happy to brief anyone on what we are doing and 
how we are making progress at any time, Senator.
    Senator Murray. I want to know that you understand how much 
the world is questioning everything right now, just with the 
data theft alone. Looking at information trickling out about 
how--the veterans are getting letters saying that their data 
may be breached, then they are told that they would have credit 
checks for a year, and then they are told that they are not 
going to have credit checks for a year. Just from that alone, 
not to mention the budget that was not accurate, veterans 
waiting in long lines, and really they are beginning to 
mistrust the direction at the VA.
    So talk to me a little bit about how you see the world out 
there and how you can reestablish the trust?
    Admiral Dunne. Senator, when my friends and associates 
became aware that I had been nominated for this position, what 
they spoke to me about was data management. That was their 
concern; go in and fix that problem. I am convinced that if we 
execute the Secretary's plan, if I go in there and show 
leadership and get the culture changing, people understanding 
what is required of them, that will spread. People will talk by 
word of mouth. It will get around. If you go into the VA right 
now, people are aware of the change in culture. It is brought 
up at just about every meeting. The emphasis is on it and that 
will spread and people will understand that we are serious.
    The Secretary talks to us about it all the time.
    Senator Murray. Thank you.
    Senator Craig. Thank you very much. Let me close with you, 
Admiral, and say that there will be another conduit for you to 
express to the public your accomplishments in changing the 
culture of the VA and that is right here. We are very intent, 
as is the House Committee, on working with you and the 
Secretary and the VA in general to get this right. The 
Veterans' Administration, for a good number of years, has been 
constantly warned of the absence of the culture, the absence of 
the protocol, the absence of the protections in the way they 
handle their information.
    As a result of that inherent problem that we have all 
worked through in the last several months, you are coming to a 
VA at a time, in all fairness, that is going to be watched very 
closely. I do not mean to place extra burden upon your 
shoulder, but only to remind you that it is there. This 
Committee will stay focused and work with you to assure that 
this happens, because we believe it is necessary to transform 
the culture down there and to the one you are speaking about.
    Tom, let me turn to you. Let me stay on this theme, because 
I think one of the frustrations that came out of this was 
timeliness and notification of all of us as it relates to how 
certain things were or were not handled, and that has a touch 
of Congressional relations to it. Of course, you have had 
tremendous experience here on the Hill and you know how 
important it is for the VA and the committees, both on the 
House and Senate side, to have a close working relationship, 
quick turnaround on information and requests as it relates to 
our work with constituents and constituent groups, VSOs, as we 
work on behalf of America's veterans.
    Talk to me for a few moments and to the Committee about 
those relationships and the timeliness of them and the 
importance of the contact with staff and with the members of 
the appropriate committees.
    Mr. Harvey. Mr. Chairman, I very much look forward to 
working closely with your staff and the staff of a few various 
members on a regular basis just so we have an ongoing dialogue. 
I think we have developed that pretty well. I was subjected to 
verbal abuse by the Chief Counsel recently and he made it clear 
to me that I had overstepped my boundaries in some very 
significant way.
    Senator Craig. I hope he was not too abusive.
    Mr. Harvey. Oh, no, he was not too abusive. But I think 
what we have is a relationship where he does not hesitate to 
pick up the phone and call me. I said to the Secretary when I 
began this job, I said that I hope I will be able to spend 
part--at least part of a day every week up here on the Hill 
just talking to people because there is a certain amount of 
stuff that you find out from just talking to people. If you 
find out that something is an irritant, it can be taken care of 
before it becomes a crisis. I think I am well on my way to 
doing that. I certainly hope so.
    I have been working with your staff for the better part of 
a year now, but I have known Bill Brew, the Staff Director for 
the Minority, since 1981 when I first became Staff Director 
here, under then Leader, Senator Alan Cranston. I think we have 
that open flow of conversation and I look forward to keeping 
that up. It makes my job easier, as well as it makes it easier 
for you and for your staff to be responsive to your concerns.
    Something else I have, which I am sure you are aware of, is 
we have people in the Office of Congressional Liaison. We have 
people here on the Hill who try to be responsive, and 
immediately responsive to Members and their concerns if 
something comes up. They follow up, they let us know down in 
the central office, do I need to be responsive in the next 24 
hours or do I need to be responsive right away. They seem to do 
a pretty good job and that is validated by some of my 
conversations with some of the staff of the Members of this 
Committee.
    Senator Craig. Thank you, Tom.
    Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Admiral Dunne, we have 1.3 million new names on the veteran 
database, can you tell me what your plans are to make sure that 
they are cared for?
    Admiral Dunne. Yes, Senator, I can. The Office of Policy 
and Planning has the responsibility to provide forecasting to 
the various administrations within the VA so that they can 
prepare for the future. So we need to be able to take the data 
that is handled in that office and be able to describe the 
demographics of our veterans day in and day out. We need to be 
able to update it periodically and have good information, so 
that as the Administration, whether it be VHA, VBA, or the 
Cemetery Administration, as they forecast what their needs will 
be for the future, we can support them with good analytical 
data.
    Senator Murray. Be specific. Tell me what you plan to do 
for traumatic brain injury.
    Admiral Dunne. For traumatic brain injury, there would be 
the opportunity to conduct a study under the auspices of VHA 
that would tell us what medical factors, et cetera, would need 
to be evaluated, whether it was a survey or otherwise. They 
would collect all the data and have it available for analysis 
so they can make a medical evaluation.
    Senator Murray. Is that not available now?
    Admiral Dunne. There is some data available. I would expect 
more would be available over time as more of our veterans and 
active duty personnel are treated.
    Senator Murray. If, for example, you saw that a number of 
traumatic brain injured soldiers are living in remote areas, 
what would your plan be to deal with it?
    Admiral Dunne. That would require a recommendation of 
options to VHA and to the Secretary about how they could deal 
with that and make sure that our veterans had the opportunity 
to have access to the care that they would need.
    Senator Murray. Even if that was a costly recommendation, 
are you ready to make that?
    Admiral Dunne. The recommendation that I would make would 
be based on the data that we accumulated and that would be my 
duty to the Secretary to tell him what our veterans need.
    Senator Murray. How about PTSD?
    Admiral Dunne. The same thing with PTSD.
    Senator Murray. And if you found that we were not serving 
veterans adequately and efficiently, are you prepared to come 
to us and tell us that we need to find more resources--to tell 
your Administration it needs to find more resources?
    Admiral Dunne. I would not be reluctant to voice my concern 
for what was needed for our veterans based on the information 
that we have.
    Senator Murray. Are you aware of the waiting lines that we 
have in the medical centers today?
    Admiral Dunne. I am aware that there are some waiting 
lines. Yes, Senator, I am.
    Senator Murray. Have you thought in any way about how we 
can shorten these?
    Admiral Dunne. Yes, Senator, I have. I believe I can make 
the Office of Policy and Planning expertise available to 
Admiral Cooper and VBA, to help him with process analysis of 
how they are handling the claims, et cetera, and work with him 
in order to continue to reduce that time line and make it more 
timely, as I know is already his goal.
    Senator Murray. How about waiting lines for benefits? Are 
you aware of how long they are?
    Admiral Dunne. I am aware that it approaches 180 days. I 
believe we can take a look at things similar to Web 
applications, and for those veterans who are proficient at 
using computers, that would speed up the process. For those 
veterans who chose to apply in person instead of on the Web, 
the line would be shorter, et cetera. It is still the same 
volume, but handling it through different processes using 
technology, or other elements, in order to make things go as 
fast as humanly possible.
    Senator Murray. I am sure you are aware of the challenges 
with budget requests to Congress over the last year and a half, 
how do you plan to make sure that we get a realistic budget 
based on real needs and the cost of health care today?
    Admiral Dunne. Once again, Senator, it is making our Office 
of Policy and Planning's analytical capability available to the 
Office of Management as they prepare the budget and help them 
with economic forecasting, in which we have experts that will 
provide them those economic forecasts and allow them to factor 
that into their model as they prepare the budget.
    Senator Murray. So you really want to do this?
    Admiral Dunne. Yes, Senator, I do. I think it is a very 
important mission, and I am very hopeful to be confirmed and 
have the opportunity to serve.
    Senator Murray. Mr. Harvey, I do not mean to ignore you, 
but your skills in dealing with Senator Simpson, I think are 
good background for having to deal with many of us, and I 
assure you, I will not ignore you once you are in office.
    Mr. Harvey. I am sure you will not.
    Senator Craig. Gentlemen, I have no further questions other 
than several necessary ones that are pro forma questions that 
are asked. Before I ask those, I confer with Senator Murray. My 
style is different than former Senator Alan Simpson. That means 
we are different in how we approach things. But I always liken 
Senator Simpson, when he would walk by a sleeping dragon, he 
would stick his finger in his eye to determine whether it was 
fire breathing or not fire breathing. I have learned over time 
that sleeping dragons ought to be allowed to continue to sleep 
until such time as they awaken, then you have to deal with 
them. He still holds a fascinating reputation here in the U.S. 
Senate.
    Gentlemen, let me ask you some necessary and pro forma 
questions that are important for the record. You can respond to 
them individually or jointly.
    Do you have any conflicts of interest that you have not 
fully disclosed to the Committee or do you know of any other 
matters which, if known to the Committee, might affect the 
Committee's recommendations to the Senate with respect to your 
nominations?
    Mr. Harvey. No, Senator, I do not.
    Admiral Dunne. No, sir.
    Senator Craig. Have you fully and accurately provided 
financial and other information requested by the Committee and 
do you now affirm that information is complete, accurate, and 
provided in a form not designed to evade?
    Mr. Harvey. Yes, Senator, I have done that.
    Admiral Dunne. Yes, sir.
    Senator Craig. Do you agree to supply the Committee such 
non-privileged information, materials and documents as may be 
requested by the Committee in its oversight and legislative 
capacities for as long as you shall serve in the position for 
which you now seek confirmation?
    Mr. Harvey. Yes, Senator, I do. Let me just parenthetically 
mention that just the day before yesterday, in a conversation 
with our Deputy Secretary Gordon Mansfield, he mentioned how 
significant a role this process is. He said, ``You know, this 
is the U.S. Constitution at work. You have been nominated by 
the President and the Senate is now preparing to give its 
advice and consent on that.'' He said, ``Think of it as 
something that is very serious.'' I do, and it was helpful that 
Gordon mentioned that and just sort of refreshed it in our 
minds because it is something serious that we do.
    Admiral Dunne. Mr. Chairman, I will.
    Senator Craig. Do you agree to appear before the Committee 
at such times and concerning such matters that the Committee 
might request for as long as you serve in the position for 
which you are seeking confirmation?
    Mr. Harvey. Yes, sir.
    Admiral Dunne. Yes, sir.
    Senator Craig. Gentlemen, thank you very much for being 
with us this morning. We are pleased you brought your families 
with you. As was mentioned, we are going to move as 
expeditiously as we can. It is critically important that we 
fill these positions and get the VA up to speed and, Admiral, 
in the capacity that you will move into upon confirmation, 
there has been a void of leadership in that position for some 
time. At this moment in time, I think the Congress is focused 
on the reality of the problem you are now in charge of dealing 
with and it is a huge task. At the same time, for the short 
term and the long term, it is a critical task.
    When the Secretary was before us last week, I charged him 
or his successor with the challenge of coming back and being 
able to hold up a Business Week magazine article that speaks 
about the quality of VA's IT and how it is managed and 
controlled as the example the rest of Government ought to 
follow, as is the case of medical records today at VA, and how 
the rest of both the public and private medical world is 
wanting to follow.
    If you can meet that challenge, you will have accomplished 
a great deal. We know that it will not be done overnight. We 
recognize it is a time and place process, but I was just 
thinking that if you grew up under the tutelage of Admiral 
Rickover, and certainly your experience would suggest to me 
that you did, that was all about process and it was all about 
discipline. And that is how he built one of the most successful 
nuclear navies in the history of the world. That kind of 
tutelage prepares you well for this position.
    Thank you both very much for being with us and, as I have 
said, we will move as expeditiously as we can toward your 
confirmation. Thank you. The Committee will stand adjourned.
    [Whereupon, at 10:53 a.m. the Committee was adjourned.]

                            A P P E N D I X

                               __________

                Prepared Statement of Allan E. Goodman, 
        President and CEO, Institute of International Education

    I have the privilege of serving as president of the Nation's oldest 
and largest educational exchange organization, the Institute of 
International Education (IIE), and the good fortune of having a son-in-
law, Dr. John Dooley, who interned for Senator Frist and now practices 
Internal Medicine at the VA Hospital in Washington.
    IIE has the honor to administer the Fulbright Program on behalf of 
the Department of State and has done so since its inception. The 
Institute has also found itself on the front lines of the war against 
learning; since 1920, we have been engaged in rescuing scholars. We 
have helped over 10,000 to reach safe haven and continue their work for 
the benefit of humankind. Many have gone on to win Nobel Prizes. This 
year, Senator Patrick Leahy and Lord Browne of Madingley have nominated 
the Institute for the Nobel Peace Prize.
     For 7 years (1998-2005), Thomas Harvey served as the Institute's 
Senior Counselor for Government Affairs. He did so with consistent 
excellence and complete dedication to our mission of ``Opening Minds to 
the World'' and to the Fulbright Program's goal of fostering mutual 
understanding. He is, in my view, an exemplary servant of causes and 
needs in the public interest.
    The needs of veterans have never been far from Tom's mind. Over the 
more than twenty years that I have known him, Tom has taken a special 
interest in those who, as a result of being wounded, confront special 
and considerable challenges navigating daily life and holding a job. He 
has empathy--and a sharp eye for the public and private accommodations 
that need to be made to ensure that veterans and their families are 
honored and helped in America.
    The offices of the Department of Veterans Affairs have always been 
in Tom's eye, too. The Institute's Washington, DC offices are three 
blocks from VA headquarters. And as I pass the VA building these days 
and read what is written above the door, I think about the perfect fit 
between what President Abraham Lincoln said the Veterans' 
Administration should do--``To care for him who has borne the battle, 
and for his widow and his orphan''--and the energy, integrity, and 
commitment to that mission, Tom will, if confirmed, bring to his post. 
He is just the kind of person to help lead the Department of Veterans 
Affairs. Tom Harvey knows what their service--and his--is all about.
                                 ______
                                 
                Prepared Statement of David W. Gorman, 
             Executive Director, Disabled American Veterans

    On June 22, 2006, the President announced his intention to nominate 
our friend and Disabled American Veterans (DA Life Member Thomas Harvey 
of New York to be Assistant Secretary for Congressional Affairs, 
Department of Veterans Affairs (VA). Your Committee has scheduled a 
hearing on July 26, 2006, to consider that nomination. We write in full 
support of Mr. Harvey's nomination, and urge his early confirmation by 
the full Senate.
    As a distinguished disabled veteran and a Life Member of our 
organization, Mr. Harvey and his qualifications to serve are well known 
to the DAV.
    He served as an infantry officer in the United States Army from 
1966 to his honorable discharge in 1985; during his combat service in 
Vietnam, Mr. Harvey was decorated with the Silver Star and Purple Heart 
for his valorous actions.
    Mr. Harvey currently serves as Acting Assistant Secretary for 
Congressional Affairs at VA. Prior his current VA appointment, he 
served as Senior Counsel for the Institute of International Education 
York. Earlier in his career, Mr. Harvey served as Chief Counsel and 
Staff Director for your own Committee under Chairman Alan K. Simpson of 
Wyoming. Among his many accomplishments during that tenure was 
Congressional passage of the Veterans Eligibility Reform Act of 1996, 
Public Law 104-262, one of the most significant acts of Congress 
dealing with veteran's health care enacted since World War II. Mr. 
Harvey was a lead negotiator on that key legislation that has aided 
millions of sick and disabled veterans in living better, healthier 
lives.
    On examination of his credentials and background, we believe the 
Senate will find Mr. Harvey to be immanently qualified for the position 
of trust for which has been nominated. As a wounded and combat veteran, 
former Senate staff director and counsel, former Deputy Administrator 
of Veterans Affairs, and, to his current role at VA, Mr. Harvey has 
been an exemplar of fidelity, honesty and integrity. The DAV is proud 
to call Thomas Harvey a dear friend, and more importantly, a friend to 
America's veterans. The VA Secretary places a great deal of reliance on 
Mr. Harvey's advice and counsel, and we believe his influence on VA 
policy will only grow over time in his confirmed assignment as 
Assistant Secretary.
    In summary, Mr. Chairman, DAV wholeheartedly supports Thomas 
Harvey's confirmation. We hope your Committee will duly examine his 
qualifications and will subsequently report positively and unanimously 
his fitness to serve the Nation's veterans as Assistant VA Secretary 
for Congressional Affairs.


                                  <all>

</pre></body></html>
